No.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

CHRISTOPHER BRIAN COPE - PETITIONER
VS.
DARREL VANNOY, WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)
PROOF OF SERVICE
I, CHRISTOPHER BRIAN COPE, do swear or declare that on this date, July

„ 2021, as

required by Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail, properly addressed
to each of them and with first- class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
DISTRICT ATTORNEY, 1ST JDC
CADDO PARISH
501 TEXAS STREET
SHREVEPORT, LA., 71101-0000
I declare under penalty of perjury that the foregoing is true and correct

Executed on

, 2021.
Christopher Cope

14

AUG 1 n 2021

(

